TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Actions Are Needed to Ensure Audit Results
                   Post Timely and Accurately to Taxpayer
                                  Accounts



                                        September 7, 2012

                              Reference Number: 2012-30-097




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information
  2(f) = Risk Circumvention of Agency Regulation or Statute


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                     HIGHLIGHTS


ACTIONS ARE NEEDED TO ENSURE                            that had soon to expire assessment statute
AUDIT RESULTS POST TIMELY AND                           expiration dates that were not controlled in
ACCURATELY TO TAXPAYER                                  accordance with established procedures.
ACCOUNTS                                                TIGTA also found that procedures were not
                                                        followed to expedite the processing of 891 of
                                                        1,377 large dollar audits so actions could be
Highlights                                              initiated to collect the $100,000 or more that the
                                                        taxpayers agreed they owed. This, in turn, cost
                                                        the Federal Government approximately
Final Report issued on                                  $324,000 of lost interest revenue. In addition,
September 7, 2012                                       TIGTA identified three audits with deficiencies
                                                        totaling approximately $134,000 that were
Highlights of Reference Number: 2012-30-097             incorrectly posted to taxpayer accounts ***1***
to the Internal Revenue Service Commissioner            *************************1**************************
for the Small Business/Self-Employed Division.          ********1*************.
IMPACT ON TAXPAYERS                                     Further, 80 employees had access to sensitive
TIGTA identified several control issues that            command code combinations that gave them
adversely affected the ability of the Small             capabilities such as inputting adjustments to
Business/Self-Employed Division to timely and           taxpayer accounts and changing key taxpayer
accurately post audit results to taxpayer               account information, including addresses.
accounts and protect the statutory period for           TIGTA found that the IRS does not have
assessing tax deficiencies. These issues                adequate controls over the employees’ access
increased the risk of 1) allowing noncompliant          to and use of such combinations. As a result,
taxpayers to avoid paying taxes they otherwise          there will continue to be a risk of potentially
owe, 2) creating unnecessary burden on                  fraudulent transactions occurring and going
taxpayers by posting inaccurate tax                     undetected.
assessments, and 3) compromising the integrity          WHAT TIGTA RECOMMENDED
of the tax system by issuing erroneous tax
refunds.                                                TIGTA recommended that the Director,
                                                        Campus Reporting Compliance, Small
WHY TIGTA DID THE AUDIT                                 Business/Self-Employed Division, establish
This audit was initiated to determine whether the       procedures that ensure all audits entering the
Centralized Case Processing function controls at        Centralized Case Processing operation with
the Memphis, Tennessee, Campus are ensuring             short statute expiration dates and large dollar
that Small Business/Self-Employed Division              deficiencies are timely and accurately assigned
Field audits are timely and accurately                  and processed in accordance with applicable
processed, and the statutory period for                 procedures. Procedures also need to be
assessing taxes is protected. The review is part        established that ensure accurate information is
of our Fiscal Year 2012 Annual Audit Plan and           posted to taxpayer accounts and employees’
addresses the major management challenge of             use of sensitive command code combinations is
Tax Compliance Initiatives.                             monitored.
                                                        In their response to the report, IRS management
WHAT TIGTA FOUND
                                                        agreed with five recommendations and partially
Despite layers of management controls, steps            agreed with one recommendation. IRS
need to be taken to ensure that returns with            management stated that they plan to take or
pending statute expiration dates are protected          have already taken corrective actions.
and audit results are timely and accurately
posted to accounts. TIGTA analyzed
Fiscal Year 2011 audit closures and found
229 audits with deficiencies totaling $4.9 million
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          September 7, 2012


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Actions Are Needed to Ensure Audit Results Post
                             Timely and Accurately to Taxpayer Accounts (Audit # 201130048)

 This report presents the results of our review to determine whether the Memphis, Tennessee,
 Campus Centralized Case Processing function’s controls are ensuring that Small
 Business/Self-Employed Division audits are timely and accurately processed, and the
 statutory period for assessing taxes is protected. The review is part of our Fiscal Year 2012
 Annual Audit Plan and addresses the major management challenge of Tax Compliance
 Initiatives.
 Management’s complete response to the draft report is included as Appendix IX.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendations. Please contact me at (202) 622-6510 if you have questions or
 Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
 Operations), at (213) 894-4470 (Ext. 128).
                        Actions Are Needed to Ensure Audit Results Post Timely and
                                     Accurately to Taxpayer Accounts




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 5
          Numerous Management Controls Have Been Developed to
          Monitor the Posting of Audit Results and the Statutory Period for
          Assessing Taxes ............................................................................................ Page 5
          Controls Need Strengthening Over Assessment Statutes and the
          Processing of Audit Results .......................................................................... Page 7
                    Recommendations 1 through 3:......................................... Page 13

                    Recommendation 4:........................................................ Page 14

          Additional Controls Are Needed to Ensure Employees’ Access to
          Sensitive Command Code Combinations Is Appropriate ............................. Page 14
                    Recommendations 5 and 6: .............................................. Page 16


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 17
          Appendix II – Major Contributors to This Report ........................................ Page 20
          Appendix III – Report Distribution List ....................................................... Page 21
          Appendix IV – Outcome Measure ................................................................ Page 22
          Appendix V – Employees’ Access to Sensitive Command Code
          Combinations and the Potential Risks .......................................................... Page 24
          Appendix VI – Form 3198, Special Handling Notice for
          Examination Case Processing ...................................................................... Page 28
          Appendix VII – Fiscal Year 2012 Performance Review of
          Centralized Case Processing at the Memphis Campus ................................. Page 30
          Appendix VIII – Glossary of Terms ............................................................. Page 38
          Appendix IX – Management’s Response to the Draft Report ...................... Page 40
        Actions Are Needed to Ensure Audit Results Post Timely and
                     Accurately to Taxpayer Accounts




                      Abbreviations

AIMS            Audit Information Management System
CCP             Centralized Case Processing
ERCS            Examination Returns Control System
FTE             Full-Time Equivalent
FY              Fiscal Year
IDRS            Integrated Data Retrieval System
IRM             Internal Revenue Manual
IRS             Internal Revenue Service
SB/SE           Small Business/Self-Employed
TIGTA           Treasury Inspector General for Tax Administration
                   Actions Are Needed to Ensure Audit Results Post Timely and
                                Accurately to Taxpayer Accounts




                                         Background

The Small Business/Self-Employed (SB/SE) Division has approximately 26,000 employees who
serve 57 million taxpayers, which is roughly one-third of the overall taxpayer base. The
SB/SE Division’s mission is to protect the public interest by applying the tax law with integrity
and fairness to all and to provide its customers top-quality service by educating and informing
them of their tax obligations, developing educational products and services, and helping them
understand and comply with applicable laws.
In January 2004, the Internal Revenue Service (IRS) established the Centralized Case
Processing (CCP) – Examination1 operation, which is part of the SB/SE Division’s Campus
Compliance Services function. The CCP operation is responsible for performing critical services
for audit groups from the SB/SE Division Examination function and the Large Business and
International Division Examination Program. These services focus on timely and accurately
recording and processing closed audits on IRS systems, including posting a variety of
adjustments and assessment information to the Master File so that revenue is protected and
undue burden is not placed on taxpayers. Our review focused on the CCP operation site at the
Memphis, Tennessee, Campus (hereafter referred to as the Memphis CCP function), which is
responsible for providing audit closure support for the seven SB/SE Division Area Offices
(Field).
The CCP operation replaced the once existing Field Case Processing function, which the
Treasury Inspector General for Tax Administration (TIGTA) reported on in September 2001.2
At that time, the TIGTA reported that 1) reinforcement and reemphasis of the procedures were
needed for screening, identifying, and tracking large dollar agreed audits for timely processing
and 2) more consistent procedures during the evaluations of the Case Processing functions were
needed between offices to ensure more uniformity and better management information. IRS
management agreed with the recommendations and reported that it planned to take corrective
actions. Although the IRS centralized the Case Processing function, which addressed the second
issue, we found similar findings related to the large dollar agreed audits during this review,
which are discussed later in our report.
When audit groups from the Field complete their audits, they ship the audit files to the
Memphis CCP function for final closure and update the status of each audit to “in-transit to
CCP” in the IRS’s Examination Returns Control System (ERCS). The Field and the Memphis
CCP function are both responsible for monitoring whether the audit files are timely received by

1
 See Appendix VIII for a glossary of terms.
2
 TIGTA, Ref. No. 2001-30-154, The Case Processing – Examination Support Processing Function Is Timely
Performing Many of Its Responsibilities (Sept. 2001).
                                                                                                    Page 1
                    Actions Are Needed to Ensure Audit Results Post Timely and
                                 Accurately to Taxpayer Accounts



the Memphis CCP function. Upon receipt, the Memphis CCP function reviews the instructions
provided by the Field on the Form 3198, Special Handling Notice for Examination Case
Processing,3 to determine how to process the audit closure and whether it should be expedited.
As noted in Figure 1, for the past two fiscal years, the Memphis CCP function has been
responsible for closing more than 320,000 audits annually.4 Although the number of audit
closures has increased during the last few fiscal years, the number of allocated full-time
equivalents (FTE) responsible for assisting with these audits has steadily decreased.
Specifically, the FTE allocation has changed from 166 in Fiscal Year (FY) 2010 to 151 during
the first quarter in FY 2012, a decrease of 9 percent.
To ensure audit results are posted timely, the IRS designated certain time periods (metrics) for
closing audits. These metrics depend on the priority and special features associated with each
audit. The Memphis CCP function monitors the audits that were not closed within the
designated metrics by using weekly generated reports. Although these reports provide a
snapshot of the number of audits that were not closed within the designated metrics, the
Memphis CCP function’s overall performance, on an aggregate level, such as a monthly,
quarterly, or annual perspective, is not routinely monitored. For example, the only aggregate
level analysis performed during the last three fiscal years was limited to analyzing four or
five months’ worth of data during its FY 2010 and FY 2012 annual performance reviews of the
Memphis CCP function.5
According to the IRS, the compliance goal for each audit status type is 95 percent. As noted in
Figure 1, we determined the Memphis CCP function’s overall compliance rate with the IRS
designated metrics by using the data available in IRS systems. Although we found that the
Memphis CCP function was successful in meeting or nearly meeting the 95 percent compliance
goal for most of the audit status types for FYs 2010 and 2011, overall compliance decreased in
the first quarter of FY 2012. As noted in Appendix VII, the IRS stated that this decrease could
be a result of a combination of factors, such as decreasing staff levels and system-related
outages.




3
  See Appendix VI for an example of the Form 3198.
4
  Although the Memphis CCP function provides closure support for both audits and survey cases, this report focused
on only audit closures. A survey is a determination by the examiner’s group manager that examination of the tax
return is not warranted and the taxpayer has not yet been contacted.
5
  An annual performance review for FY 2011 could not be performed due to budget constraints.
                                                                                                          Page 2
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



Figure 1: Timeliness of the Memphis CCP Function Audit Closures by Audit Type

                                    Internal           Number of Audits Closed Timely During FY 2010
                                    Revenue                 Through the 1st Quarter of FY 2012
 CCP                                Manual
Status     Audit Type Status         (IRM)                                                              FY 2012
                                                       FY 2010                 FY 2011
Code         Description6           Metrics                                                           (1st Quarter)

                                                 # of Audits      %       # of Audits      %       # of Audits      %
    52    Special Processing         45 Days          10,732      95%         35,166       93%           3,655       76%
    53    Restricted Interest        60 Days           4,170      95%           3,707      96%           1,058       94%
    54    Expedite Processing/       20 Days
                                                      19,047      95%         22,496       85%           2,915       90%
          Short Statute
    55    Routine Closure/           45 Days
                                                     290,956      98%        272,941       93%          51,894       79%
          Unagreed Default

Total Number of Audits and Related
Percentages, Closed Within the                       324,905      97%        334,310       93%          59,522       80%
Respective Metrics

Total Number of Audits Closed7                       333,882                 360,055                    74,778
Source: TIGTA analysis of an extract from the Audit Information Management System (AIMS) of Field audits
closed by the Memphis CCP function that were assigned to Status Codes 52, 53, 54, or 55.

This review was performed at the Headquarters Offices of the SB/SE Division in
New Carrollton, Maryland, the Cincinnati Submission Processing Campus in
Florence, Kentucky, and the Memphis Campus Compliance Services function in
Memphis, Tennessee, during the period October 2011 through April 2012. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,


6
  The CCP operation prioritizes its work according to the type of audit it receives for closure. This column includes
general descriptions of the types of audits that are typically associated with the specified CCP status code, which has
its own designated timeliness metric.
7
  The total number of audits closed shown here is the total number of audits closed for CCP Status Codes 52, 53, 54,
and 55 only. We did not include audits closed for CCP Status Codes 51 (in transit) and 57 (survey) in our
calculation of the total number of audits closed. If we had included the audits closed for CCP Status Codes 51 and
57 in our calculation, the total number of audits closed by the Memphis CCP function in FY 2010, FY 2011, and the
first quarter of FY 2012 would have been 334,482, 360,536, and 74,857, respectively.
                                                                                                                 Page 3
                 Actions Are Needed to Ensure Audit Results Post Timely and
                              Accurately to Taxpayer Accounts



scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                        Actions Are Needed to Ensure Audit Results Post Timely and
                                     Accurately to Taxpayer Accounts




                                         Results of Review

The TIGTA’s analysis of electronic data of closed audits from FY 2010 through the first quarter
of FY 2012 found that the Memphis CCP function did not follow applicable procedures for
closing 891 (65 percent) of 1,377 audits with an assessment amount of $100,000 or greater that
were agreed and unpaid by the taxpayer (large dollar audits).8 As a result, the IRS missed an
opportunity to collect approximately $324,000 in interest revenue from additional tax
assessments. Our review also found that audits were not always closed timely and with accurate
assessment amounts. In addition, the Memphis CCP function lacked controls to ensure that
audits with short statutes for assessing taxes were protected in accordance with IRS procedures.
The TIGTA’s evaluation indicates a combination of factors caused the quality problems and that
actions can be taken to better ensure audits are timely and accurately closed and that the statutory
period is protected. During discussions over the results of our review, we learned that a team
from the IRS reported their results from evaluating the Memphis CCP function’s operations
during March 2012. As shown in Appendix VII, the team’s April 12, 2012, memorandum
identified concerns similar to the concerns identified by the TIGTA. Notably, the team’s
memorandum lists a number of corrective actions that, if implemented effectively, will reinforce
and help address our recommendations.

Numerous Management Controls Have Been Developed to Monitor the
Posting of Audit Results and the Statutory Period for Assessing
Taxes
The IRS relies on the Memphis CCP function’s tax examiners, clerical support staff (control
clerks), and its first-line managers to ensure that audits are timely and accurately closed and the
statutory period for assessing taxes is protected. To assist examiners, control clerks, and
first-line managers in meeting this responsibility, the IRS has developed and implemented a
number of policies, procedures, and techniques (management controls). At the agency level,
broad policy statements provide guidance nationwide to IRS personnel. Of the 184 IRS Policy
Statements, 36 cover examination issues, such as taxpayer rights and examiner responsibilities.
At the divisional level, the quality measurement staff in the SB/SE Division reviews a
statistically valid sample of examination audits to assess the degree to which the Memphis CCP
function timely and accurately provided audit closure support. Data from these reviews are
entered into the National Quality Review System and provides the performance results for
customer accuracy, professionalism, and timeliness. In addition to reviews by the SB/SE


8
    These audits did not have a Substitute for Return.
                                                                                              Page 5
                       Actions Are Needed to Ensure Audit Results Post Timely and
                                    Accurately to Taxpayer Accounts



Division quality measurement staff, SB/SE Division mid-level managers may evaluate ongoing
work during operational reviews. Operational reviews are required to be performed at least
annually to ensure work is being done effectively. These processes serve as a quality control by
identifying managerial, technical, and procedural problems and providing a basis for corrective
actions.
At the local level, the Memphis CCP function’s first-line managers are also an important control
component because they are responsible for the quality of work performed by the tax examiners
and control clerks they supervise. A variety of techniques are used to ensure tax examiners and
control clerks follow applicable standards and procedures when they provide audit closure
support. These techniques include performance observations, discussions with tax examiners
and control clerks, and reviews of audit file documentation. Through these observations,
discussions, and reviews, first-line managers attempt to identify problems so examiners and
control clerks can take prompt corrective actions.
The IRM is another important control component because it contains the official compilation of
detailed instructions for the Memphis CCP function’s tax examiners and control clerks to follow
when performing audit closure support. Throughout the IRM, examiners are instructed to
properly document, in audit files, all aspects of their work as it relates to audit closure support.
Audit file documentation is important because it provides the principal evidence that procedures
were followed, as well as the foundation for other control processes, such as managerial reviews
and quality measurement reviews. The importance of the Memphis CCP function’s tax examiner
and control clerk documentation is further emphasized in management directives, tax examiner
and control clerk training materials, and the quality measurement standards.
In addition to the previously discussed controls, SB/SE Division management has continued to
implement various approaches to emphasize the expectation that the CCP operation’s tax
examiners and control clerks provide effective audit closure support. Specifically, since the
FY 2001 TIGTA report, the Campus Compliance Services function took the following actions:
          Established the CCP operation in January 2004 in an effort to centralize and standardize
           Case Processing functions into fewer sites.
          Revised and reissued the IRM section9 that provides the CCP operation’s policy
           guidelines and procedures for inventory control. These procedures focus on the ERCS
           application, which the CCP uses to monitor its inventory and update the statuses of
           audits.
          Revised and reissued the IRM section10 that provides the CCP operation’s policy
           guidance and procedures for processing audits with large dollar assessment amounts.


9
    IRM 4.7.8 (May 13, 2011).
10
     IRM 4.4.18 (Jun. 11, 2010).
                                                                                              Page 6
                   Actions Are Needed to Ensure Audit Results Post Timely and
                                Accurately to Taxpayer Accounts



        Revised and reissued the IRM section11 that provides the CCP operation’s policy
         guidance and procedures for processing quick assessments.
        Implemented procedures for the CCP operation to identify and research, on a weekly
         basis, the status of audit files that have been in transit for more than 30 calendar days.
Further, the IRS developed and implemented several controls to ensure that audits with short
statutes (120 or fewer days remaining on the assessment statute expiration date) are prioritized
and placed under special controls to ensure that revenue is appropriately protected. These
controls include separating the short statute audits from the overall population to ensure that they
are the first ones assigned. After an audit is assigned for processing, additional controls are in
place to ensure that audits with statute dates expiring within 60 or fewer days are processed with
a quick assessment rather than the normal assessment. Specifically, the IRS Report Generation
Software System performs validation checks to identify audits with 60 or fewer days remaining
on the assessment statute expiration date. These validation checks will reject non-quick
assessment postings and generate a notice that the audit requires a quick assessment. Quick
assessments are required for audits with 60 or fewer days remaining on the assessment statute
expiration date as it cuts the processing time by at least 74 percent. For instance, quick
assessments are posted to the Master File within one to five days as compared to the normal time
period of 19 days.
Although there are layers of management controls in place to monitor the posting of audit results
and the statutory period for assessing taxes, our results indicate that additional steps could be
taken to better ensure that audits are timely and accurately processed and short statute audits are
controlled in accordance with applicable procedures.

Controls Need Strengthening Over Assessment Statutes and the
Processing of Audit Results
The Government Accountability Office Standards for Internal Control in the Federal
Government requires agencies to establish controls that ensure operations are carried out in a
manner that adheres to management policies and procedural requirements.12 During the course
of our review, we determined that the Memphis CCP function could have performed more
comprehensive reviews of its inventory to better identify specific weaknesses in performance,
especially regarding short statute and large dollar audits that are not controlled and processed in
accordance with IRS policies and procedures.




11
  IRM 4.4.25 (Aug. 1, 2003).
12
  Government Accountability Office (formerly known as the General Accounting Office), GAO/AIMD-00-21.3.1,
Standards for Internal Control in the Federal Government (Nov. 1999).
                                                                                                   Page 7
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



Audits with short statute dates were not always properly controlled in accordance
with applicable procedures
The SB/SE Division managers are responsible for maintaining statute controls for tax returns in
the possession of personnel they supervise.13 For the CCP operation, this includes establishing a
continuous statute control file consisting of weekly generated reports from the ERCS14 for any
tax return with short statute dates. On a weekly basis, the ERCS statute control data should be
reconciled to the corresponding data in the AIMS to ensure the accuracy of the data on both
systems. To efficiently perform this reconciliation, the Memphis CCP function developed and
implemented a local procedure where a weekly report is generated by combining statute control
data from both the ERCS and AIMS and presented side-by-side.
To supplement these statute control requirements, the CCP operation’s procedures require that
short statute audits be prioritized and controlled by designated teams. Specifically, according to
current IRS policies, audits that are received by the CCP operation with 120 or fewer days
remaining on the statute date should be assigned to one of the designated teams for expedited
processing and closed within 20 days of assignment. To assist the CCP operation’s control
clerks with assigning the audits for closure, the IRS system validation checks identify short
statute audits and alert the control clerks to take the appropriate action (assign the audit to one of
the designated teams). However, we found that the control clerks are not always considering this
alert during the assignment process and the system does not reject the assignment if the clerk
fails to assign it to the correct team.
We analyzed all audits closed during FY 2011 and found 8,997 audits (out of a universe of
360,536 audits15) that had 120 or fewer days remaining on the statute upon receipt in the CCP
operation. Of those 8,997 audits, we found 229 audits with deficiencies totaling $4.9 million that
were not properly controlled in accordance with applicable procedures. Specifically, they were
not assigned to one of the designated teams for expedited processing. Based on our review of a
judgmental sample16 of short statute audits17 and discussion with the Memphis CCP function’s
management, we identified several factors that may have contributed to these audits not being
properly controlled in accordance with the applicable procedures.

13
   According to IRM 25.6.23.2 (Mar. 1, 2008), statute controls ensure: 1) statute expiration dates on tax returns are
properly determined and records are annotated to reflect the correct assessment statute expiration date and 2) audits
are closely monitored to prevent unintended expiration of the assessment statute of limitations.
14
   ERCS statute control data are reflected on the Form 895, Notice of Statute Expiration, and the ERCS Pending
Statute Report.
15
   This total includes audits from all CCP status codes, which differs from the total listed in Figure 1.
16
   A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
17
   In addition to the analysis of all FY 2011 closed audits, we also selected a judgmental sample. Specifically, as
stated in Appendix I, we selected a judgmental sample of 78 closed audits from a population of 35,905 that were
closed by the Memphis CCP function between September 29, 2011, and October 31, 2011. Of the 78 closed audits,
37 met the 120-day criteria. These 78 closed audits were reviewed at the Cincinnati Submission Processing Campus
in Florence, Kentucky.
                                                                                                             Page 8
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



The 229 audits were not properly controlled because Memphis CCP function managers have not
taken steps to ensure that all audits are properly screened upon receipt to verify the statute
expiration date and assign them for expedited processing when required. For example, we found
that instructions from the Field, as noted on the audit closing documents, are not always being
followed. In addition, although the Memphis CCP function’s management monitors the status of
short statute audits through weekly generated reports to ensure that the audit results are posted
prior to the assessment statute expiration date, they are not using these reports to detect and
correct assignment errors. Failing to properly screen each tax return and ensure that short statute
audits are properly assigned increases the risk of a barred statute.
In addition, the CCP operation could enhance one of its primary tools to better assist its
examiners during the screening process. Specifically, the current Form 3198 gives the option for
the Field to identify audits with only 90 or fewer days remaining on the statute date as audits that
require expedited processing. As a result, those audits that have short statute dates expiring
between 91 and 120 days are not flagged for the control clerks during the screening process. Our
review found that 166 (72 percent) of the 229 audits that were not properly controlled had statute
dates that were within 91 and 120 days of expiring. According to the IRS, the Field and the CCP
operation’s definition for short statute audits is not consistent due to the fact that their respective
functions have different goals and responsibilities. Given that Form 3198 serves both the Field
and the CCP operation, we believe that Form 3198 should provide useful information for both
functions. For instance, the CCP operation uses the Form 3198 as one of the primary tools to
identify short statute audits during the screening process. As a result, enhancing the Form 3198
to accommodate the CCP operation’s definition of short statute audits, i.e., include a section for
the Field to identify audits within 91 and 120 days, would better ensure audits with short statutes
are properly assigned during the screening process, which would also better ensure these audits
are properly controlled.
Further, we found that the management and operational reviews over the Memphis CCP function
during the past few fiscal years were not designed to test compliance with applicable statute
procedures. As a result, the IRS is missing an opportunity to identify and correct potential
weaknesses with the Memphis CCP function’s procedures to control short statute audits. Failure
to identify and assign short statute audits to one of the designated teams may result in increased
closure time, as well as increase the risk of potential barred statutes. For instance, of the
229 FY 2011 short statute audits that were not properly controlled, 54 (24 percent) were not
closed within the 20-day requirement.18 Although the number of short statute audits that were
not properly controlled represents only a small percentage of the total number of short statute
audits processed by the Memphis CCP function, they comprised approximately $4.9 million in
additional tax deficiencies for which, if not properly controlled, there is an increased risk of lost
revenue to the Department of the Treasury.

18
 For 13 (6 percent) of the 229, it took the Memphis CCP function between 40 and 87 days to close the audit after it
was assigned, which is more than double the designated metric.
                                                                                                           Page 9
                    Actions Are Needed to Ensure Audit Results Post Timely and
                                 Accurately to Taxpayer Accounts



Improvements are needed for identifying, controlling, and processing large dollar
audits
Internal Revenue Code Section 6601(c)19 states that the IRS has 30 days to assess audits (post
audit results) with agreed and unpaid deficiencies before it negatively affects the amount of
interest that the IRS can capture. If the IRS takes longer than 30 days to make the assessment,
the IRS cannot capture any interest after this period until the assessment posts to the taxpayer’s
account. Large dollar audits (deficiencies of $100,000 or more that are agreed and unpaid) have
the most effect on lost interest and, therefore, IRM procedures20 require the CCP operation to
place these audits under special controls and expedite the posting of audit results to ensure that
revenue is appropriately protected. These requirements include assigning large dollar audits to
one of the designated teams for expedited processing. In addition, the IRM requires the CCP
operation to perform a quick assessment for large dollar audits to ensure that the audit results are
posted within 30 calendar days from the agreement date. As noted earlier, quick assessments
drastically reduce the amount of time for an assessment to post to the Master File, thus
minimizing the potential (or actual) lost interest. However, our review found that the Memphis
CCP function did not always properly control or process large dollar audits in accordance with
applicable procedures.
Specifically, we analyzed all large dollar audits closed during FY 2010 through the first quarter
of FY 2012 and found that 891 (65 percent) of 1,377 audits (from a total population of
769,875 audits) were not processed and assessed timely by the Memphis CCP function (within
30 calendar days21 of receipt in the Memphis CCP function), which resulted in approximately
$324,000 of lost interest revenue.




19
   I.R.C. § 6601(c).
20
   IRM 4.4.18 (June 11, 2010).
21
   Although the IRM requires the CCP operation to process large dollar audits within nine or 17 calendar days of
receipt depending on the circumstances, we considered the audit not processed timely if it was not processed and
assessed within 30 calendar days as we can reasonably assume that the audit agreement date was at a minimum one
day prior to the CCP receiving the audit.
                                                                                                        Page 10
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



Based on our review of a judgmental sample of large dollar audits22 and discussion with the
Memphis CCP function’s management, we identified several factors that may have contributed
to these large dollar audits not being properly controlled or processed in accordance with the
applicable procedures. For example, the CCP operation relies exclusively on the Field to
identify large dollar audits on the Form 3198 and lacks additional controls to attempt to identify
all large dollar audits that are in their possession in the event that the audit file was not
appropriately flagged by the Field. The IRS also lacks system validation checks to identify and
alert the CCP operation that the audit being assigned for closure is a large dollar audit and
therefore requires assignment to one of the designated teams for expedited processing.
In addition, the current IRS system does not perform validation checks to ensure that the
appropriate quick assessment is performed on large dollar audits, as the system does for the short
statute audits discussed previously. For instance, when the Memphis CCP function attempts to
post a normal assessment for large dollar audits, the system does not reject the posting and
generate a message that a quick assessment may be required. As a result, there is an increased
risk that both a normal assessment and quick assessment could be performed for one audit, thus,
resulting in duplicate assessments. In our sample of 78 audits, we found that ********1*******
****************************************1******************************** that
was subsequently reversed after the TIGTA notified the IRS of the error. ******1***********
*********************************************1*********************, during our
aggregate level analysis of audits closed during FY 2010 through the first quarter of FY 2012.
When we brought ***1**** to the attention of IRS officials, they informed us that they had
already identified and reversed the *****1*********.
Further, we found that the management and operational reviews over the Memphis CCP function
during the past few fiscal years were not designed to test compliance with procedures for large
dollar audits. As a result, the IRS is missing an opportunity to identify and correct potential
weaknesses with the Memphis CCP function’s controls over large dollar audits, and thereby risks
the loss of potential interest revenue. Although, the IRS implemented new procedures in
January 2012 to require large dollar audits to be assigned immediately upon receipt, more
systematic controls are necessary to ensure that large dollar audits are identified upon receipt, as
well as controlled and processed in accordance with applicable procedures.




22
  In addition to the analysis of all large dollar audits closed during FY 2010 through the first quarter of FY 2012, we
also selected a judgmental sample. Specifically, as stated in Appendix I, we selected a judgmental sample of
78 closed audits from a population of 35,905 that were closed by the Memphis CCP function between
September 29, 2011, and October 31, 2011. These audits were reviewed at the Cincinnati Submission Processing
Campus in Florence, Kentucky. Of the 78 closed audits, six had agreed, unpaid deficiencies of $100,000 or more
and did not have a Substitute for Return.
                                                                                                             Page 11
                  Actions Are Needed to Ensure Audit Results Post Timely and
                               Accurately to Taxpayer Accounts



Management needs to ensure audits are closed with correct assessment amounts
to avoid unnecessarily burdening the taxpayer and lost revenue
Strong controls over the processing and posting of audit results are critical for ensuring that any
additional taxes owed, based on audits of taxpayers, are paid and collected. However, we found
that the Memphis CCP function processed incorrect assessment amounts that were not detected
by existing IRS controls or management reviews. When incorrect assessments are posted, the
IRS is at risk of placing undue burden on a taxpayer and potentially losing revenue for the
Department of the Treasury.
During the course of our review, we found three audits23 that were closed with incorrect
assessment amounts totaling approximately $134,000. For each of these three audits, neither the
Memphis CCP function’s examiners nor current IRS system validation checks identified these
posting errors as part of the standard procedures for closing audits. This occurred because the
CCP operation’s procedures do not require tax examiners to perform a manual comparison of
the assessment amounts reported on the hardcopy closing documents and the corresponding
assessment amounts reported on the electronic versions of the closing documents. Although the
assessment amounts noted on the hardcopy and electronic closing documents should be
consistent, our review found, and Memphis CCP function officials agreed, that the closing
documents sometimes include conflicting information. For example, the Field may print a more
recent version of a closing document with the correct assessment amount and include it in the
audit file, but fail to electronically save the updated closing document in the system. Under this
scenario, the electronic closing document, which the CCP operation uses to close the audit in the
system, would have the incorrect assessment amount. For the three cases noted, the Field did not
save the information in the closing document and, as a result, the Memphis CCP function closed
the audits with incorrect assessment amounts. According to the CCP operation’s officials, the
Field is responsible for ensuring the consistency of the closing documents and, therefore, the
CCP operation’s procedures do not currently require its tax examiners to compare the assessment
amounts on the closing documents. Given the known risk of inconsistent closing documents, the
IRS should evaluate the feasibility of implementing additional procedures to help reduce the risk
of incorrect assessment amounts.
In addition, reviews by Memphis CCP function first-line managers, quality measurement staff,
and mid-level managers, do not include steps to test whether Memphis CCP function tax
examiners are identifying discrepancies in the closing documents. According to IRS officials,
the CCP operation relies on the Field to input the correct assessment amount into the electronic
closing document and, therefore, Memphis CCP function management reviews do not test for
these types of discrepancies. However, given that the Memphis CCP function is aware that the
information in the closing documents is not always consistent, the Memphis CCP function


23
  *********************************************1*********************************************
***************************************************1************************************.
                                                                                            Page 12
                  Actions Are Needed to Ensure Audit Results Post Timely and
                               Accurately to Taxpayer Accounts



should also have management reviews in place to help provide performance feedback to better
ensure that incorrect assessment amounts are minimized. The lack of effective management
reviews increases the risk that errors made in the processing and posting of audit results will
remain undetected or will not be detected in a timely manner. Incorrect assessment amounts that
result in underassessments could result in lost revenue for the IRS in the event that the error is
not caught prior to the assessment statute expiration date.

Recommendations
The Director, Campus Reporting Compliance, SB/SE Division, should:
Recommendation 1: Develop and implement additional procedures to ensure that all audits
entering the CCP operation with short statute expiration dates and large dollar assessment
amounts are timely and accurately assigned and processed in accordance with applicable
procedures.
       Management’s Response: IRS management agreed with this recommendation and
       stated that Campus Reporting Compliance now uses the 120-day Numeric Statute Report,
       implemented July 1, 2012, to monitor and control statutes. Statute audits that meet the
       assessment criteria are identified and reassigned for immediate resolution. In addition, a
       new pop-up box will be implemented in the Integrated Automation Technologies tool that
       will identify audits with an assessment of $100,000 or more when the audits are initially
       assigned by the clerical team.
Recommendation 2: Conduct a cost-benefit analysis to determine whether it would be
beneficial to develop and implement systematic controls to ensure that the required quick
assessments are performed on large dollar audits.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they will determine if further systematic controls are needed once the
       Integrated Automation Technologies tool, noted in Recommendation 1, is implemented.
       To accomplish this, the IRS stated it plans to work with the SB/SE Division Research
       function to determine a reasonable sample review.
Recommendation 3: Ensure that controls are developed and implemented to reduce the risk
of audits being closed with incorrect assessment amounts, including comprehensive guidance to
assist managers in conducting reviews of processing and posting audit results, and documenting
the results of such reviews.
       Management’s Response: IRS management agreed with this recommendation and
       stated that the responsibility for this action belongs with the Director, Examination,
       SB/SE Division. The SB/SE Division Examination function has developed
       comprehensive guidance regarding the necessity to validate audits to ensure accurate


                                                                                          Page 13
                    Actions Are Needed to Ensure Audit Results Post Timely and
                                 Accurately to Taxpayer Accounts



        processing and posting of audit results. Managers and examiners will be trained on the
        new guidance.
Recommendation 4: Coordinate with the Director, Exam Planning and Delivery, SB/SE
Division, regarding the feasibility of enhancing Form 3198 so that all audits with short statute
expiration dates are appropriately identified.
        Management’s Response: IRS management partially agreed with this
        recommendation. The Form 3198 is used by the SB/SE Division Examination function to
        provide closing instructions to the CCP function. The CCP function uses the 120-day
        Numeric Statute Report to monitor and control any short statute audits. Any audits
        requiring assessment are reassigned for immediate resolution. After completion of the
        planned corrective action for Recommendation 1, the IRS will re-evaluate the process to
        determine if enhancements to the Form 3198 would be helpful or needed.

Additional Controls Are Needed to Ensure Employees’ Access to
Sensitive Command Code Combinations Is Appropriate
The Memphis CCP function uses the Integrated Data Retrieval System (IDRS) to process various
transactions to post audit results, including but not necessarily limited to, adjusting the amount
assessed on taxpayer accounts, transferring credits, and changing taxpayer addresses. Based on
the IRS employee’s specific role and responsibilities, he or she is granted access to input certain
IDRS transactions (command codes) to post audit results. As stated in a prior IRS Office of
Inspection Internal Audit report,24 access to certain combinations of IDRS command codes may
compromise the segregation of duties, thereby increasing the risk for improper actions to occur
and go undetected. Because the IRS recognizes that certain employees may need access to these
sensitive command code combinations to perform their day-to-day responsibilities, it does not
prohibit employees from having such combinations in their profiles. However, IRS systems do
not require a secondary level of review when an employee uses a sensitive command code
combination.
As noted in the Government Accountability Office’s Standards for Internal Control in the
Federal Government, key duties and responsibilities need to be divided or segregated among
different people to reduce the risk of error or fraud. Because strict adherence to this policy may
not be feasible or practical in every situation, internal controls should therefore be designed to
assure that ongoing monitoring occurs in the course of normal operations to minimize the risk for
improper actions. To address the associated risk of error or fraud due to employees having
access to such combinations, IRS policies require management to develop procedures for
assigning, monitoring, and reviewing the access to and use of these sensitive command code


24
  IRS Office of Inspection Internal Audit, Ref. No. 371802, Risk Assessment of Midstates Region Collection
Division Inventory and IDRS Controls (Jul. 1997).
                                                                                                        Page 14
                    Actions Are Needed to Ensure Audit Results Post Timely and
                                 Accurately to Taxpayer Accounts



combinations. The IRM25 also states that the command code use of employees with access to
sensitive command code combinations should be reviewed by front-line managers at least
monthly to determine that no inappropriate actions have been performed.
During our review, we found that 80 (49 percent) of 163 employees from the Memphis CCP
function had access to at least one of 12 sensitive command code combinations in FY 2011.26
We also found that 75 (52 percent) of 145 employees from the Memphis CCP function had
access to at least one of 11 combinations in the first quarter of FY 2012.27 This total includes
13 employees who had access to combinations that would allow both the approval of manual
refunds on an account and the ability to change a taxpayer’s address. Despite the IRM
requirements and the fact that one-half of Memphis CCP function employees have access to
sensitive command code combinations, we found that the Memphis CCP function has not
developed or implemented any procedures for assigning, monitoring, or reviewing their
employees’ access to and use of these sensitive command code combinations.
In addition, the monthly IDRS reports, which all IRS managers are required to certify, do not
include any information regarding IRS employees’ access to or use of sensitive command code
combinations. We reviewed the IRS system capabilities and found that managers can generate
reports to monitor employees’ access to specific command code combinations. However,
according to IRS officials, the current IRS systems are not capable of identifying employees’ use
of a sensitive command code combination for one particular taxpayer at the same time.
Further, during our review, we met with Memphis CCP function managers about the
requirements to monitor employees’ access to and use of sensitive command code combinations
and they informed us that they were not aware of the requirements or how to perform this type of
monitoring. We reviewed IDRS procedural guidance and handbooks, and the training materials
provided to all IDRS reviewers, which included Memphis CCP function managers, and found
that none of them included specific instructions for how to monitor employees’ access to and use
of sensitive command code combinations. We also found that Memphis CCP function managers
did not always attend the required trainings. For instance, all 14 managers from the Memphis
CCP function should have completed the initial training during FY 2010; however, we found that
eight (57 percent) of the 14 managers did not complete this training during FY 2010. Seven of
the eight managers completed the initial training during FY 2011; however, at the time of our
review, one manager had not completed this training two years after the initial requirement. This
is particularly alarming because six of these eight managers were given IDRS administrative
rights prior to receiving any training on how to perform their duties as an IDRS reviewer.


25
   IRM 10.8.34 (Oct. 14, 2011).
26
   See Appendix V for additional details surrounding the employees’ access to and potential risks of sensitive
command code combinations.
27
   The number of sensitive command code combinations for which Memphis CCP function employees had access
decreased from 12 in FY 2011 to 11 in FY 2012.
                                                                                                        Page 15
                 Actions Are Needed to Ensure Audit Results Post Timely and
                              Accurately to Taxpayer Accounts



Without adequate procedures and controls over the employees’ access to and use of sensitive
command code combinations, there will continue to be a risk of potentially fraudulent
transactions occurring and going undetected.

Recommendations
The Director, Campus Reporting Compliance, SB/SE Division, should:
Recommendation 5: Develop and implement procedures for assigning, monitoring, and
reviewing Memphis CCP function employees’ access to and use of sensitive command code
combinations.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they have completed the corrective action. Training was provided to all
       managers to ensure appropriate monitoring and use of all command codes. The Planning
       and Analysis function staff will ensure that managers are adhering to appropriate
       monitoring by including this as part of the Director’s annual review.
Recommendation 6: Ensure that Memphis CCP function managers are adequately trained on
the specific process for assigning, monitoring, and reviewing its employees’ access to and use of
sensitive command code combinations.
       Management’s Response: IRS management agreed with this recommendation and
       stated that Memphis CCP function managers are now required to take annual training on
       assigning, monitoring, and reviewing employees’ IDRS access.




                                                                                         Page 16
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective was to determine whether the Memphis CCP1 function’s controls are
ensuring that SB/SE Division audits are timely and accurately processed, and the statutory period
for assessing taxes is protected. To accomplish the objective, we:
I.       Determined what actions the IRS has taken in response to recommendations from a prior
         TIGTA report2 by researching relevant IRM sections and discussing policies and
         procedures with IRS management officials in the Memphis CCP function.
II.      Determined whether the Memphis CCP function is timely and accurately processing
         audits by performing the following:
         A. Reviewed the IRM and interviewed management officials for local guidance to
            identify responsibilities of the Memphis CCP function and general internal controls
            over processes.
         B. Conducted aggregate-level analysis of audits closed and processed through the
            Memphis CCP function from FY 2010 through the first quarter of FY 2012 through
            the use of AIMS data to determine whether the audits were processed within the
            required time metrics.
             1. Validated the AIMS data by comparing our results with the Weekly Health
                Reports from IRS Headquarters for FYs 2010 to 2012.
         C. Obtained ERCS inventory lists for the Memphis CCP function using the ERCS
            application. These include audits in transit (ERCS Status Code 51) from Field groups
            and audits currently being worked in the Memphis CCP function (ERCS Status
            Codes 52-57) as of December 27, 2011, and audits that were closed (ERCS Status
            Code 90) between December 19, 2011, and December 27, 2011.
         D. Identified, reviewed, and tested the controls over processing agreed and unagreed
            audits by selecting a judgmental sample3 of 78 closed audits from a population of
            35,905 that were closed by the Memphis CCP function between September 29, 2011,
            and October 31, 2011. To avoid any impact on the Memphis CCP function’s
            operations, we selected our sample from audits that were already closed and shipped

1
  See Appendix VIII for a glossary of terms.
2
  TIGTA, Ref. No. 2001-30-154, The Case Processing – Examination Support Processing Function Is Timely
Performing Many of Its Responsibilities (Sept. 2001).
3
  A judgmental sample is a nonstatistical sample, the results of which cannot be used to project to the population.
                                                                                                             Page 17
                 Actions Are Needed to Ensure Audit Results Post Timely and
                              Accurately to Taxpayer Accounts



          to storage. Specifically, we judgmentally selected audits that were in storage at the
          Cincinnati Submission Processing Campus in Florence, Kentucky. We limited our
          sample to 78 audits due to resource and time constraints. Our tests on this sample
          included reconciling the corresponding electronic data in the IDRS, the ERCS, and
          the AIMS to the hard copy audit files.
       E. Identified 1,377 large dollar audits with agreed and unpaid deficiencies greater than
          $100,000 through the use of AIMS, ERCS, and Master File data from a population of
          769,875 Field audits closed during FY 2010 through the first quarter of FY 2012. Of
          the 1,377 large dollar audits, we identified 891 audits where the assessment date was
          more than 30 days after the Memphis CCP function received date.
          1. Validated the AIMS data by comparing a random sample of 25 of the 891 audits
             to the IDRS.
          2. Validated the ERCS data by comparing a random sample of 100 closed audits to
             the original source documents.
          3. Calculated interest that was lost on 891 audits where the assessment date was
             more than 30 days after the Memphis CCP function received date by
             compounding interest daily using formulas in Microsoft Excel that we validated
             using a commercial interest computation software.
III.   Determined whether the Memphis CCP function is protecting the statutory period for
       assessing taxes.
       A. Evaluated the Memphis CCP function’s statute controls, including barred statute
          reports, to ensure there are no control weaknesses or integrity potential.
          1. Researched relevant IRM sections and discussed associated policies and
             procedures with IRS officials to determine the current controls that are in place to
             monitor statute dates.
          2. Reviewed barred statute reports from FYs 2010 and 2011 to determine if the
             Memphis CCP function had barred statutes resulting specifically from issues
             where the statute date was not timely or effectively monitored.
       B. Using AIMS and ERCS data, identified 229 audits from FY 2011 with assessment
          statutes expiring within 120 days that were not properly controlled according to IRS
          policies and procedures.
          1. Validated the AIMS data by comparing a random sample of 25 of the 229 audits
             to the IDRS.
          2. Validated the ERCS data by comparing a random sample of 100 closed audits to
             the original source document.

                                                                                         Page 18
                  Actions Are Needed to Ensure Audit Results Post Timely and
                               Accurately to Taxpayer Accounts



       C. Evaluated the timeliness and effectiveness of managerial reviews over returns with
          pending statute dates. This involved reviewing management and operational reviews
          of the Memphis CCP function for FYs 2010 and 2011 to determine if such reviews
          included tests for compliance with applicable statute procedures.
       D. Verified the assessment statute date for a judgmental sample of 78 closed audits from
          Step II.D. Based on the Memphis CCP function’s receipt date, we identified
          37 audits with 120 or fewer days remaining on the assessment statute date. We
          validated the dates using the ERCS, the IDRS, and supporting documentation in the
          audit files.
IV.    Determined whether the electronic security controls over tax returns in the Memphis CCP
       function are effective.
       A. Evaluated the security over the IDRS, ERCS, and AIMS databases by discussing
          controls with IRS management officials in the Memphis CCP function and Cyber
          Security organization and analyzing IDRS Online Reports Services Quarterly and
          Monthly Reports for FY 2011 through the first quarter of FY 2012 to identify
          examiners with sensitive command code combinations.
       B. Determined whether the Memphis CCP function managers were adequately trained
          on the processes for assigning, monitoring, and reviewing Memphis CCP function
          employees’ access to and use of sensitive command code combinations.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS policies, procedures, and practices for
timely and accurately processing audits and ensuring the statutory period is protected. We
evaluated these controls by reviewing source materials, interviewing management, analyzing
audit data, and researching the AIMS, the ERCS, and the IDRS.




                                                                                           Page 19
                Actions Are Needed to Ensure Audit Results Post Timely and
                             Accurately to Taxpayer Accounts



                                                                            Appendix II

                Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Michelle Philpott, Acting Director
Alberto Garza, Acting Audit Manager
Carole Connolly, Senior Auditor
Levi Dickson, Auditor
James Allen, Information Technology Specialist
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                    Page 20
                Actions Are Needed to Ensure Audit Results Post Timely and
                             Accurately to Taxpayer Accounts



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Campus Compliance Operations, Memphis, Small Business/Self-Employed Division
SE:S:CCS:CCO
Director, Exam Planning and Delivery, Small Business/Self-Employed Division SE:S:E:EPD
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 21
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Increased Revenue – Potential; $323,900 from additional interest revenue assessed for
    891 Field1 audits closed during FY 2010 through the first quarter of FY 2012 (2.25 year
    period); $719,779 when projected over five years2 (see page 7).

Methodology Used to Measure the Reported Benefit:
Our calculation assumes that the interest revenue resulting from the audit deficiency would have
been assessed and paid by the taxpayer had the Memphis CCP function processed the audit
closure timely and accurately. According to the IRM,3 every effort should be made to assess the
deficiency within 30 calendar days of the agreement date if the unpaid deficiency is greater than
$100,000. As noted in our report, this is especially important because interest revenue starts
accruing on the 31st day after the agreement date when the audit assessment amount is posted
timely. Both the Field and the CCP operation share responsibility for ensuring that this
30-day criterion is met. For instance, the Field must forward the audit files to the CCP operation
after the agreement date has been secured, and the CCP operation must then input the audit
assessment amount to close the audit all within this 30-day time period. If the assessment
amount does not post to the taxpayer’s account within 30 days of the agreement date, then the
IRS loses interest revenue. As noted in our report, the IRS is often required to input a quick
assessment to ensure the assessment amount is posted to the taxpayer’s account within the
designated time periods, such as these large dollar audits.
Because the agreement dates are not available on an aggregate level, we could not readily
determine the full extent of the lost interest revenue for all of the large dollar audits that lacked

1
  See Appendix VIII for a glossary of terms.
2
  The five-year forecast of $719,779 was calculated by taking the $323,900 and dividing it by 2.25 years (FY 2010
through the first quarter of FY 2012) and multiplying by five years. This forecast assumes that the error trends
present in FY 2010 through the first quarter of FY 2012 will remain constant over the next five years. Because we
are applying a uniformity assumption based on observations from 2.25 years of data, we are unable to quantify the
degree of uncertainty associated with the forecasted $719,779 in additional interest revenue. This type of
forecasting is used by the Federal Government in many instances.
3
  IRM 4.4.18.3 (June 11, 2010).
                                                                                                         Page 22
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts



an assessment posting within 30 days from the agreement date. Instead, we developed a
methodology to conservatively estimate lost interest revenue attributable solely to the Memphis
CCP function. Specifically, we considered the audit closure not timely if the assessment amount,
which the Memphis CCP function input into the system, did not post to the Master File after
30 days from when they received the audit file from the Field.
To estimate the potential additional interest revenue associated with the Memphis CCP
function’s untimely closure of large dollar audits, we first identified the total universe of audits
that met the criteria for large dollar audits as defined by the IRM.4 To do this, we
       Used the AIMS data to identify large dollar audits closed by the Memphis CCP function
        between October 1, 2009, and December 31, 2011.
       Joined the data from the previous step with the ERCS data to identify the date that the
        Memphis CCP function received the audit.
       Joined the data from the previous step with the IRS Master File data to identify the date
        the assessment amount was posted to the taxpayer’s account.
       Eliminated all audits where a Substitute for Return was present.
This analysis identified 1,377 large dollar audits, totaling $273,783,432 in deficiencies, from a
population of 769,875 Field audits closed during FY 2010 through the first quarter of FY 2012.
From the population of 1,377 accounts, we identified those audits that were not processed timely
by the Memphis CCP function. As noted previously, we considered that the audit closure was
not processed timely if the audit assessment amount was not posted to the taxpayer’s account
within 30 days from the date the Memphis CCP function received the audit file from the Field.
Using this criterion, we identified 891 audits where the assessment posting date was greater than
30 days from the date the Memphis CCP function received the audit file from the Field.
From the population of 891 audits, we calculated the interest revenue using the amount of each
audit’s tax deficiency and multiplied it by the 1) compounded interest rate effective at the time
the return was filed, which ranged from 3 to 4 percent and 2) number of days in excess of
30 days from the Memphis CCP function’s date of receipt. For these 891 audits, the estimated
amount of interest lost due to the Memphis CCP function’s failure to follow applicable
procedures, e.g., perform the required quick assessment and/or closing the audit within the IRM
requirements, was $323,900.
We shared our outcome measure methodology with an outside statistical expert who confirmed
the accuracy of our methodology and forecast.


4
 According to IRM 4.4.18 (June 11, 2010), a large dollar audit must have an agreed and unpaid deficiency of
$100,000 and greater. Also, the audit must not have been secured by the Examination function after a Substitute for
Return has posted.
                                                                                                          Page 23
                        Actions Are Needed to Ensure Audit Results Post Timely and
                                     Accurately to Taxpayer Accounts



                                                                                               Appendix V

          Employees’ Access to Sensitive Command Code
              Combinations and the Potential Risks

    This appendix presents detailed information on Memphis CCP function employees’ access to and
    use of sensitive command code combinations, as well as the potential risks associated with each
    combination. As stated in a prior IRS Office of Inspection Internal Audit report,1 there are
    several sensitive command code combinations that would normally require proper segregation of
    duties. However, as shown in Figure 1, we found that Memphis CCP function employees had
    access to several sensitive and conflicting command code combinations during FY 2011 and the
    first quarter of FY 2012. During this same time period, we found several instances where
    Memphis CCP function employees input both of the sensitive command codes within a particular
    combination. However, as noted in our report, current IRS systems are not capable of
    identifying the employees’ use of sensitive command code combinations for one particular
    taxpayer at the same time.
        Figure 1: Memphis CCP Function Employees’ Access to and Use of Sensitive
         Command Code Combinations and the Potential Risks of Each Combination
                                                             Number of Memphis CCP
                                                           Function Employees Who Had
                                                           Access to Sensitive Command
                                                          Code Combinations (and Used2
                                                          Both Codes in the Combination)         Potential Risks
                                                                                                Associated With
                                                             FY 2011          FY 2012          Sensitive Command
                                                                            (1st Quarter)      Code Combinations
           Sensitive Command Code Combinations
1        *****2(f)******       ********2(f)******             29 (27)           14 (8)        ****2(f)******
                                                                                              .


                               .




    1
      IRS Office of Inspection Internal Audit, Ref. No. 371802, Risk Assessment of Midstates Region Collection
    Division Inventory and IDRS Controls (Jul. 1997).
    2
      We determined that Memphis CCP function employees used both codes within a combination to adjust taxpayer
    accounts; however, due to IRS system limitations, we were unable to determine whether the employees’ use of
    sensitive command code combinations was for one particular taxpayer at the same time.
                                                                                                         Page 24
                      Actions Are Needed to Ensure Audit Results Post Timely and
                                   Accurately to Taxpayer Accounts




                                                Number of Memphis CCP
                                              Function Employees Who Had
                                              Access to Sensitive Command
                                             Code Combinations (and Used2
                                             Both Codes in the Combination)      Potential Risks
                                                                                Associated With
                                               FY 2011         FY 2012         Sensitive Command
                                                             (1st Quarter)     Code Combinations
       Sensitive Command Code Combinations
2    *****2(f)*******      ****2(f)*****       66 (57)          62 (33)       *****2(f)*******




3    *****2(f)*****        *****2(f)*****      23 (15)          13 (4)        *****2(f)*******




4    *****2(f)******       *****2(f)******      15 (9)          10 (9)        *****2(f)*****




5   *****2(f)********      *****2(f)*****      79 (71)          73 (62)       *****2(f)******




                                                                                        Page 25
                     Actions Are Needed to Ensure Audit Results Post Timely and
                                  Accurately to Taxpayer Accounts




                                                Number of Memphis CCP
                                              Function Employees Who Had
                                              Access to Sensitive Command
                                              Code Combinations (and Used
                                             Both Codes in the Combination)      Potential Risks
                                                                                Associated With
                                              FY 2011          FY 2012         Sensitive Command
                                                             (1st Quarter)     Code Combinations
       Sensitive Command Code Combinations
6    *****2(f)******     *****2(f)*****        30 (27)          15 (9)        *****2(f)*****




7    *****2(f)******     *****2(f)******       67 (57)          63 (33)       *****2(f)*******




8   *****2(f)*****       *****2(f)*****        23 (15)          13 (4)        *****2(f)*****




                                                                                        Page 26
                            Actions Are Needed to Ensure Audit Results Post Timely and
                                         Accurately to Taxpayer Accounts




                                                              Number of Memphis CCP
                                                            Function Employees Who Had
                                                            Access to Sensitive Command
                                                            Code Combinations (and Used
                                                           Both Codes in the Combination)          Potential Risks
                                                                                                  Associated With
                                                             FY 2011            FY 2012          Sensitive Command
                                                                              (1st Quarter)      Code Combinations
              Sensitive Command Code Combinations
9          *****2(f)*****          *****2(f)*****              15 (9)            10 (9)         *****2(f)*****
                                                                                                .




10        *****2(f)*****           *****2(f)*****             80 (71)            74 (64)        *****2(f)*****




11        *****2(f)*****           *****2(f)*****              12 (7)             4 (4)         *****2(f)*******
                                   .




12        *****2(f)*****           *****2(f)*****              2 (0)              0 (0)         *****2(f)******
                                   .




Source: IDRS Online Reports Services,3 the IRM, and our analysis of the information from these sources.



     3
         See Appendix VIII for a glossary of terms.
                                                                                                          Page 27
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts



                                               Appendix VI

Form 3198, Special Handling Notice
 for Examination Case Processing




                                                      Page 28
           Actions Are Needed to Ensure Audit Results Post Timely and
                        Accurately to Taxpayer Accounts




Source: IRS Forms and Publications, dated July 2011.




                                                                 Page 29
        Actions Are Needed to Ensure Audit Results Post Timely and
                     Accurately to Taxpayer Accounts



                                                       Appendix VII

Fiscal Year 2012 Performance Review of Centralized
     Case Processing at the Memphis Campus




                                                              Page 30
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 31
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 32
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 33
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 34
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 35
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 36
             Actions Are Needed to Ensure Audit Results Post Timely and
                          Accurately to Taxpayer Accounts




Source: Director, Campus Reporting Compliance, SB/SE Division.



                                                                   Page 37
                  Actions Are Needed to Ensure Audit Results Post Timely and
                               Accurately to Taxpayer Accounts



                                                                                  Appendix VIII

                                 Glossary of Terms

Area Office – A geographic organizational level used by IRS business units and offices to help
their specific types of taxpayers understand and comply with tax laws and issues.
Assessment Statute Expiration Date – The time period for which the IRS may assess tax. In
general, the assessment statute expiration date is three years from the filing of the return, unless
the return is filed before the due date (determined without regard to any extension of time to
file), in which case the assessment statute expiration date is three years from the due date.
Audit Information Management System – A computer system used by the SB/SE Division
Examination Operations function and others to control returns, input assessments/adjustments to
the Master File, and provide management reports.
Barred Statute – A barred statute occurs when the assessment statute expiration date for an
audit has expired which prohibits the IRS from assessing a tax deficiency on a taxpayer’s
account.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Centralized Case Processing - Examination – There are CCP Examination sites located in
Cincinnati, Ohio; Memphis, Tennessee; and Ogden, Utah. Each group handles a specific
process. The Cincinnati Campus processes all SB/SE Division Specialty Program tax audits,
including employment, estate and gift, and excise. The Memphis Campus processes all SB/SE
Division Field audits and also shares responsibility with the Cincinnati Campus in providing
audit closure support for Large Business and International Division audits from Area Office 315
(International/Puerto Rico). The Ogden Campus processes all Large Business and International
Division audits. While these three sites are responsible for closing audits, they also process
survey, i.e., non-examined, cases.
Examination Returns Control System – An automated inventory management system used to
requisition tax returns, assign returns to examiners, change codes, such as status and project
codes, and charge time. The ERCS can be used to control work that is not controlled on the
AIMS, such as preparer penalties. The ERCS also provides real-time information in the form of
screens and reports for management of the SB/SE and Large Business and International
Divisions.



                                                                                             Page 38
                  Actions Are Needed to Ensure Audit Results Post Timely and
                               Accurately to Taxpayer Accounts



Field – Refers collectively to the following seven SB/SE Division Area Offices:
201 (North Atlantic), 202 (Central), 203 (South Atlantic), 204 (Midwest), 205 (Gulf States),
206 (Western), and 207 (California).
First-Line Manager – A group manager in the Examination function responsible for supervision
of IRS examiners.
Fiscal Year – A 12-consecutive-month period ending on the last day of any month, except
December. The Federal Government’s fiscal year begins on October 1 and ends on
September 30.
Full-Time Equivalent – A measure of labor hours in which one FTE is equal to eight hours
multiplied by the number of compensable days in a particular fiscal year. For FY 2011, one FTE
was equal to 2,088 staff hours. For FY 2012, one FTE is equal to 2,088 staff hours.
IDRS Online Reports Services – An automated web-based program that provides IDRS
security staffs, Unit Security Representatives, and the managers of IDRS users access to the
IDRS security reports.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Master File –The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
National Quality Review System – The system allows national reviewers to evaluate audit files
to determine whether examiners complied with quality attributes established by the IRS.
Report Generation Software – The software program utilized in the examination process to
1) compute corrected tax, interest, and penalties, and generate audit reports; 2) create various
forms and letters; 3) allow examiners and reviewers to document their actions and findings; and
4) process and archive examination results.
Status Code – A two-digit alpha-numeric indicator that shows the current status of an audit.
Substitute for Return – a procedure by which the IRS is able to establish an account when the
taxpayer refuses or is unable to file a tax return and information received indicates that a return
should be filed.
Transaction Code – A three-digit code used to identify actions being taken on a taxpayer’s
account.




                                                                                             Page 39
    Actions Are Needed to Ensure Audit Results Post Timely and
                 Accurately to Taxpayer Accounts



                                                   Appendix IX

Management’s Response to the Draft Report




                                                          Page 40
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 41
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 42
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 43
Actions Are Needed to Ensure Audit Results Post Timely and
             Accurately to Taxpayer Accounts




                                                      Page 44
